NO. 20-7732

IN THE SUPREME COURT OF THE UNITED STATES

TINA LASONYA BROWN, Petitioner,
v.

STATE OF FLORIDA, Respondent.

Certificate of Service
I, Carolyn M. Snurkowski, a member of the Bar of this Court, hereby certify
that on this 13th day of May 2021, a copy of the Respondent’s Brief in Opposition in
the above entitled case was furnished by United States mail, postage prepaid, to
Dawn Macready and Stacy R. Biggart, Capital Collateral Regional Counsel —
Northern Region, 1004 DeSoto Park Drive, Tallahassee, Florida 32301,
Dawn.Macready@ccre-north.org, Stacy.Biggart@ccre-north.org.

Respectfully submitted,
ASHLEY MOODY
ATTORNEY GENE

    
   

CAROLYN M. SNURKOW;
Associate Deputy Attorney General
Florida Bar No. 158541

*Counsel of Record

Michael T. Kennett

Assistant Attorney General

Office of the Attorney General

PL-01, The Capitol

Tallahassee, FL 32399-1050
Carolyn.Snurkowski@myfloridalegal.com
capapp@myfloridalegal.com

(850) 414-3300

28
